Audit Report




OIG-08-036

BILL AND COIN MANUFACTURING: BEP Needs to Enforce and
Strengthen Controls at Its Eastern Currency Facility to Prevent
and Detect Employee Theft

June 12, 2008




Office of
Inspector General
Department of the Treasury
Contents



Audit Report.................................................................................................. 1

    Background ................................................................................................. 2

    Finding      .................................................................................................... 3

        Policies Issued in Response to an Earlier Employee Theft Were Not
        Enforced ................................................................................................. 3

    Recommendations ........................................................................................ 6

Appendices

    Appendix     1:      Objective, Scope, and Methodology ......................................... 9
    Appendix     2:      Management Response ..........................................................10
    Appendix     3:      Major Contributors to This Report ............................................12
    Appendix     4:      Report Distribution.................................................................13

Abbreviations

    BEP                  Bureau of Engraving and Printing
    ECF                  Eastern Currency Facility
    OIG                  Office of Inspector General
    WCF                  Western Currency Facility




                         BEP Needs to Enforce and Strengthen Controls at Its Eastern                  Page i
                         Currency Facility to Prevent and Detect Employee Theft
                         (OIG-08-036)
         This page intentionally left blank.




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page ii
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                       June 12, 2008

                       Larry R. Felix, Director
                       Bureau of Engraving and Printing

                       The Bureau of Engraving and Printing (BEP) prints billions of Federal
                       Reserve Notes for delivery to the Federal Reserve System each
                       year. These notes are printed at the Eastern Currency Facility (ECF)
                       in Washington, D.C., and at the Western Currency Facility (WCF) in
                       Fort Worth, Texas. In June 2006, BEP notified Treasury’s Office of
                       Inspector General (OIG) that at least 64 incomplete $100 notes,
                       missing the Treasury seal and serial number, had entered into
                       commerce. A joint investigation by Treasury OIG, BEP, the U.S.
                       Secret Service, and the Federal Bureau of Investigation led to the
                       recovery of additional incomplete notes. The investigation revealed
                       that these notes originated from 21 32-count sheets of partially
                       printed $100 notes that an ECF employee stole in May 2006.1 The
                       objective of this audit was to determine the internal control failures
                       that allowed the theft to occur and to determine whether BEP has
                       enhanced its internal controls to (1) prevent the occurrence of a
                       similar theft and (2) provide for timely detection should another
                       theft occur. Appendix 1 contains a more detailed description of our
                       objective, scope, and methodology.

                       In brief, we determined that the ECF theft occurred because BEP
                       failed to ensure that production supervisors enforced, and
                       employees adhered to, existing internal controls. Additionally, there
                       were no policies and procedures in place to investigate production
                       discrepancies. We are making three recommendations to
                       strengthen BEP’s internal controls in safeguarding assets and

1
  Currency manufacturing has multiple steps. Each side of a note goes through a separate printing, after
which an individual serial number and Treasury seal are affixed. The 21 sheets stolen from ECF were
missing only the serial numbers and Treasury seal. The thief was able to put partially printed currency
into circulation by using casino vending machines.

                       BEP Needs to Enforce and Strengthen Controls at Its Eastern        Page 1
                       Currency Facility to Prevent and Detect Employee Theft
                       (OIG-08-036)
                       investigating discrepant loads. BEP concurred with the
                       recommendations and plans to add routine security patrols,
                       establish policies and procedures for dealing with production
                       discrepancies, and provide annual security training to employees.

                       It should be noted that in September 2006, the employee pled
                       guilty, pursuant to a plea agreement, to one count of possession of
                       tools and materials for counterfeiting purposes. In February 2007,
                       the employee was sentenced to 9 months of incarceration, 3 years
                       of supervised release, and ordered to pay restitution of $37,200.
                       After his arrest, the employee retired from federal service and is
                       drawing a federal government pension.

    Background
                       BEP produces U.S. currency and other security documents issued
                       by the federal government. In fiscal year 2006, BEP produced 8.2
                       billion Federal Reserve Notes, with ECF supplying 3.7 billion and
                       WCF supplying 4.5 billion. In fiscal year 2007, BEP produced 9.1
                       billion notes. The other types of security documents produced by
                       BEP include portions of U.S. passports, materials for the
                       Department of Homeland Security, military identification cards, and
                       Immigration and Naturalization certificates.

                       In October 2004, WCF plant security officials called the Secret
                       Service to report that a stack of $50 notes totaling $5,000 was
                       missing. An individual employed at WCF from 1992 to 2005 fell
                       under suspicion and admitted to stealing currency for about the last
                       6 years of his employment. In November 2005, the former
                       employee was convicted of offenses related to the theft of
                       $30,000 from WCF.2 In March 2007, we issued a report which
                       found that a major factor in the theft was WCF’s failure to follow
                       its policies and procedures.3 The report also identified an absence
                       of guidance when handling discrepant loads.


2
  Although the exact amount stolen could not be determined, authorities estimated that the individual
removed notes totaling between $600,000 and $700,000 from WCF.
3
  Bill and Coin Manufacturing: Control Weaknesses Need To Be Addressed at BEP’s Western Currency
Facility, OIG-07-035 (Mar. 30, 2007).

                       BEP Needs to Enforce and Strengthen Controls at Its Eastern       Page 2
                       Currency Facility to Prevent and Detect Employee Theft
                       (OIG-08-036)
Finding

                       Policies Issued in Response to an Earlier Employee
                       Theft Were Not Enforced

                       According to the investigation, the ECF theft occurred in May 2006
                       when an employee took 21 sheets of partially printed $100 notes.
                       Although the employee was not assigned to the area where the
                       theft occurred, his job required him to enter the area to check skids
                       of currency and make sure they were ready for transfer to the next
                       production area. With no one observing him and with the security
                       camera not focused on the area where the loads4 were staged, the
                       employee confessed that he was able to remove the sheets from a
                       skid and hide the sheets in his clothing prior to removing them from
                       the facility.

                       After the remaining sheets in the load were transferred and went
                       through the next phase of the production process, the load was
                       identified as a discrepant load on a Close of Business Report5 with
                       a shortage of 21 sheets. The follow-up reconciliation process did
                       not resolve the discrepancy and an internal investigation was not
                       conducted until the theft was detected when partially printed notes
                       were discovered at several casinos.

                       Office of Management and Budget Circular No. A-123,
                       Management’s Responsibility for Internal Control, requires an
                       agency that has identified significant areas of risk to implement
                       activities to continually monitor and test controls to identify those
                       that are poorly designed or ineffective. Management is responsible
                       for improving such controls. Management is also responsible for
                       communicating the objectives of internal control and ensuring that
                       the organization is committed to sustaining an effective internal
                       control environment.


4
  A load starts out at 20,000 sheets but would be reduced when mutilated or quality control currency is
removed from production.
5
  The Close of Business Report is an accountability document produced daily for the purpose of tracking
discrepant loads of currency from one production process to the next.

                       BEP Needs to Enforce and Strengthen Controls at Its Eastern       Page 3
                       Currency Facility to Prevent and Detect Employee Theft
                       (OIG-08-036)
BEP issued the following memoranda and policies to improve and
communicate its internal controls after the 2004 theft from WCF:

•   In May 2005, the former BEP Director issued a memorandum to
    the bureau’s management staff. The memorandum restated BEP
    policy regarding security, accountability, and safety of
    personnel and property and emphasized that supervisors are
    responsible for ensuring compliance with policies and
    procedures. Among the reminders was that no employee is
    exempt from the joint control requirements when in security
    areas or when removing products from sections.

•   In July 2005, BEP issued new bureau guidance to change the
    reconciliation process and guide accountability for securities
    produced. BEP Circular No. 71-00.64, Bureau of Engraving and
    Printing Zero Tolerance Policy (hereafter referred to as the Zero
    Tolerance Policy), requires counts of all securities to be
    reconciled upon completion of each process before the
    securities are transferred to the next process. Procedures were
    to be established by each component in the production process,
    in coordination with the Office of Management Control
    (Compliance) and Office of Security, delineating the steps to be
    taken to resolve any discrepancy. Prior to the Zero Tolerance
    Policy, BEP had an unofficial practice of accepting plus or minus
    10-sheet discrepancies in loads or processes.

•   In October 2005, BEP management issued a second bureauwide
    policy, BEP Circular No. 71-00.65, Custody and Control of
    Security Items (hereafter referred to as the Custody and Control
    Policy), which established requirements for handling BEP
    securities and instruments and defined the different controls.
    For example, in segregated production areas and in
    nonproduction areas where securities are temporarily held
    during the production process, the policy specified that work be
    conducted by “joint control teams,” which require that at least
    two team members work in the general presence and view of
    each other.

•   In March 2006, not long after being appointed, the current BEP
    Director issued a memorandum that reemphasized BEP’s policies

BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 4
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
                         and procedures to protect and account for its product. The
                         Director noted that Custody and Control Policy required
                         employees to ensure that joint control be adhered to where
                         required. The memorandum also cited (1) BEP Circular 71-
                         00.66, Procedures for Internal Transportation of Securities in
                         Approved Containers, (2) BEP Circular 70-03.18, Physical
                         Inventory Requirements for Sensitive Property and Security
                         Items, and (3) the Zero Tolerance Policy, which requires that all
                         securities be reconciled upon completion of each process before
                         being transferred to the next process. If differences are
                         identified, the Zero Tolerance Policy requires employees to
                         research and document reasons for the differences.

                     The ECF theft occurred in May 2006, only 2 months after the
                     current Director’s memorandum was issued. Nevertheless, the
                     events surrounding the theft indicated that two of the policies
                     highlighted in that memorandum were not being followed at the
                     time of the theft.

                     First, the employee who stole the currency was alone in the
                     staging area during the theft, in violation of the Custody and
                     Control Policy’s joint control requirement. During our audit, we
                     observed during walkthroughs of ECF manufacturing areas that
                     employees were still often working alone in areas requiring joint
                     control.

                     Second, when the Close of Business Report showed that the total
                     sheet count processed by one production section was 21 less than
                     the number of sheets delivered from the prior section, the
                     reconciliation did not result in a resolution of the discrepancy.
                     Under the Zero Tolerance Policy, an unresolved discrepancy may be
                     subject to review and investigation by the Office of Security.
                     However, the Office of Security informed us that not all
                     discrepancies are investigated and no investigation is undertaken
                     until a formal referral is received from the Office of Compliance or,
                     as in this case, a lead is received from another source.6 Because
                     the Office of Compliance had begun using the Close of Business

6
 A Currency Trouble Report is a memorandum that summarizes the discrepancy found, research done,
and the issue pending.

                     BEP Needs to Enforce and Strengthen Controls at Its Eastern    Page 5
                     Currency Facility to Prevent and Detect Employee Theft
                     (OIG-08-036)
            Report instead of the previously used Currency Trouble Report to
            formally refer matters to the Office of Security, the Office of
            Security said it did not know an investigation was warranted.
            According to the Assistant to the Chief of the Office of
            Compliance, the Office of Security was made aware of the policy
            change several weeks prior to the theft. But we found that the
            Office of Security had not adjusted its policies and procedures to
            institute this change.

            As a general observation, we did not find evidence that employees
            had been fully trained in complying with these policies. We believe
            providing employees with additional and continual training could
            help ensure an understanding of what is required and reinforce
            adherence to these requirements.


Recommendations
            We recommend that the Director of BEP do the following:

            1. Direct ECF management to ensure that production supervisors
               continually monitor and enforce employee adherence to policies
               and procedures.

                Management Response

                BEP concurred with the recommendation. By October 1, 2008,
                BEP will have its Police Operation Division at ECF begin
                conducting routine patrols of the currency section, as is
                currently being done at the WCF, to ensure supervisors and
                their employees are adhering to the policies and procedures.
                Officers will use a patrol checklist and, if a security violation is
                observed, may cite the responsible employee(s) and/or
                supervisor by issuing a BEP Notice of Security Violation.

                OIG Comments

                BEP’s plan to have its Police Operation Division conduct routine
                patrols at the ECF to observe for security violations and, when



            BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 6
            Currency Facility to Prevent and Detect Employee Theft
            (OIG-08-036)
    warranted, issue violation notices, satisfies the intent of our
    recommendation.

2. Direct BEP management to establish clear, written policies and
   procedures that specify assignment of responsibility and actions
   to be taken when discrepancies are found in the production
   process.

    Management Response

    BEP concurred with the recommendation. By January 1, 2009,
    BEP’s Office of Security will develop written policies and
    procedures for both BEP facilities that specify the assignment of
    responsibility and actions to be taken when discrepancies are
    found during the production process.

    OIG Comments

    BEP’s plan to develop and implement such policies and
    procedures, once done, satisfies the intent of our
    recommendation.

3. Direct BEP management to ensure that ECF employees,
   including supervisors, are trained and periodically retrained in
   product security-related policies and procedures.

    Management Response

    BEP concurred with the recommendation. By June 1, 2009,
    BEP’s Office of Security will provide all employees with annual
    security refresher training.

    OIG Comments

    BEP’s plan to conduct annual security training satisfies the
    intent of our recommendation.




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 7
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
                                 *******

We appreciate the courtesies and cooperation provided to our staff.
If you wish to discuss this report, you may contact me at
(617) 223-8640.


/s/
Donald P. Benson
Audit Director




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 8
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
Appendix 1
Objective, Scope, and Methodology




 Our audit objective was to determine the internal control failures
 that allowed the May 2006 theft of currency at the Eastern
 Currency Facility (ECF) to be perpetrated and to determine
 whether the Bureau of Engraving and Printing (BEP) has enhanced
 internal controls to (1) prevent the occurrence of a similar theft
 and (2) provide for timely detection should another theft occur.

To address these objectives, we

   reviewed BEP policies and procedures;
   reviewed internal BEP reports and memoranda;
   reviewed product accountability data;
   observed the ECF production process;
   performed analyses on discrepant load data; and
   discussed internal controls with ECF management and
    representatives from the Office of Compliance, Office of
    Currency Production, and Office of Security.

We performed work onsite at ECF from November 2006 to April
2007, with a follow-up visit in September 2007.

We conducted our audit in accordance with generally accepted
government auditing standards.




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 9
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
             Appendix 2
             Management Response




Note: BEP separately provided the signed response on its letterhead.

             BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 10
             Currency Facility to Prevent and Detect Employee Theft
             (OIG-08-036)
Appendix 2
Management Response




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 11
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
Appendix 3
Major Contributors to This Report




Office of Inspector General

Tom Byrnes, Director (retired)
Cedric Hammond, Sr., Audit Manager
John Lemen, Audit Manager (retired)
Stephen Syriala, Audit Manager (retired)
Susan Sebert, Auditor-in-Charge
Kenneth O’Loughlin, Auditor
Vicky Liu, Auditor
Myung Han, Referencer




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 12
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
Appendix 4
Report Distribution


Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Bureau of Engraving and Printing

Director
Associate Director (Chief Financial Officer)

Office of Management and Budget

OIG Budget Examiner




BEP Needs to Enforce and Strengthen Controls at Its Eastern   Page 13
Currency Facility to Prevent and Detect Employee Theft
(OIG-08-036)
